             U.S. Department of the Interior
                 Office of Inspector General




               Audit Report


         U.S. Fish and Wildlife Service Wildlife and
          Sport Fish Restoration Program Grants
                Awarded to the State of Utah,
             Department of Natural Resources,
               Division of Wildlife Resources,
         From July 1, 2006, Through June 30, 2008




Report No.
R-GR-FWS-0011-2009                         January 2010
                 United States Department of the Interior
                              OFFICE OF INSPECTOR GENERAL
                              12030 Sunrise Valley Drive, Suite 230
                                      Reston, VA 20191

                                                                                   January 29, 2010

                                       AUDIT REPORT
Memorandum

To:         Director
            U.S. Fish and Wildlife Service

From:       Suzanna I. Park
            Director of External Audits

Subject:    Audit on U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
            Grants Awarded to the State of Utah, Department of Natural Resources, Division of
            Wildlife Resources, From July 1, 2006, Through June 30, 2008
            (No. R-GR-FWS-0011-2009)

        This report presents the results of our audit of costs claimed by the State of Utah (State),
Department of Natural Resources (Department), Division of Wildlife Resources (Division),
under grants awarded by the U.S. Fish and Wildlife Service (FWS). FWS provided the grants to
the State under the Wildlife and Sport Fish Restoration Program (the Program). The audit
included claims totaling approximately $38.9 million on 51 grants that were open during State
fiscal years (SFYs) ended June 30 of 2007 and 2008 (see Appendix 1). The audit also covered
Division compliance with applicable laws, regulations, and FWS guidelines, including those
related to the collection and use of hunting and fishing license revenues and the reporting of
program income.

       We found that the Division complied, in general, with applicable grant accounting and
regulatory requirements. However, we found that the Division did not have adequate controls
over equipment and land management systems and access to its network data systems.

      We provided a draft report to FWS for a response. We summarized the Division and
FWS Region 6 responses and provided our comments on the responses after the
recommendations. We list the status of each recommendation in Appendix 3.

       Please respond in writing to the findings and recommendations included in this report by
April 29, 2010. Your response should include information on actions taken or planned, targeted
completion dates, and titles of officials responsible for implementation.

       If you have any questions regarding this report, please contact the audit team leader, Mr.
W. S. Streifel, or me at 703–487–5345.

cc:     Regional Director, Region 6, U.S. Fish and Wildlife Service
                                               Introduction
Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts) 1 established the Wildlife and Sport Fish Restoration Program. Under the Program,
FWS provides grants to States to restore, conserve, manage, and enhance their sport fish and
wildlife resources. The Acts and federal regulations contain provisions and principles on eligible
costs and allow FWS to reimburse States up to 75 percent of the eligible costs incurred under the
grants. The Acts also require that hunting and fishing license revenues be used only for the
administration of the State’s fish and game agency. Finally, federal regulations and FWS
guidance require States to account for any income they earn using grant funds.

Objectives
Our audit objectives were to determine if the Division:

      •    claimed the costs incurred under the Program grants in accordance with the Acts and
           related regulations, FWS guidelines, and the grant agreements;

      •    used State hunting and fishing license revenues solely for fish and wildlife program
           activities; and

      •    reported and used program income in accordance with federal regulations.

Scope

Audit work included claims totaling approximately $38.9 million on the 51 grants that were open
during SFYs 2007 and 2008 (see Appendix 1). We report only on those conditions that existed
during this audit period. We performed our audit at Division headquarters in Salt Lake City, UT,
and visited a regional office, a fish hatchery, two wildlife management areas, four State parks,
two national forests, a research center, a national recreation area, and waterfowl management
area (see Appendix 2). We performed this audit to supplement, not replace, the audits required
by the Single Audit Act Amendments of 1996 and by Office of Management and Budget
Circular A-133.

Methodology
We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested records and conducted auditing procedures
1
    16 U.S.C. §§ 669 and 777, as amended, respectively.


                                                          2
as necessary under the circumstances. We believe that the evidence obtained from our tests and
procedures provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Our tests and procedures included:

   •   examining the evidence that supports selected expenditures charged to the grants by the
       Division;

   •   reviewing transactions related to purchases, direct costs, drawdowns of reimbursements,
       in-kind contributions, and program income;

   •   interviewing Division employees to ensure that personnel costs charged to the grants
       were supportable;

   •   conducting site visits to inspect equipment and other property;

   •   determining whether the Department used hunting and fishing license revenues solely for
       administration of the Division; and

   •   determining whether the State passed required legislation assenting to the provisions of
       the Acts.

We also identified the internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions recorded in these systems for testing. We did not project the results of the tests to
the total population of recorded transactions or evaluate the economy, efficiency, or effectiveness
of the Division’s operations.

Prior Audit Coverage
On July 9, 2004, we issued “Final Audit Report on U.S. Fish and Wildlife Service Federal
Assistance Grants Administered by the State of Utah, Department of Natural Resources, Division
of Wildlife Resources, from July 1, 2001 through June 30, 2003” (No. R-GR-FWS-0028-2003).
We followed up on all seven recommendations in the report and found that the Department of the
Interior, Office of Assistant Secretary for Policy, Management, and Budget considered them
resolved and implemented.

We also reviewed Utah’s Comprehensive Annual Financial Reports and Single Audit Reports for
SFYs 2007 and 2008. The Division’s Wildlife and Sport Fish Restoration Programs were
identified as major programs and were tested for the SFY 2007 Single Audit only. None of these
reports contained any findings that would directly impact the Program grants.




                                                3
                                    Results of Audit
Audit Summary
We found that the Division complied, in general, with applicable grant agreement provisions and
requirements of the Acts, regulations, and FWS guidance. However, we identified several
conditions that resulted in the findings listed below. We discuss the findings in more detail in
the Findings and Recommendations section.

       Inadequate Equipment Management. The Division did not maintain an accurate
       inventory list nor identify the funding source of all equipment purchased with Program
       funds and license revenue.

       Inadequate Land Management Records. The Division could not support accounting
       entries related to revenue from land transactions and had not reconciled its land records to
       the FWS for land purchased with Program funds.

       Improper Access to the State’s Accounting System. The Division did not terminate
       user access privileges to the State’s accounting system when staff left employment with
       the Division.

Findings and Recommendations
A.     Inadequate Equipment Management

       The Division maintains a fixed asset (equipment) inventory system. However, based on
       our review, the Division’s inventory was not accurate and did not identify the funding
       source of all equipment purchased with Program funds and license revenue. Specifically,
       we found that the:

           •   Inventory maintained by the Division’s field offices did not include 19 of the 26
               items we viewed during our site visits, including a forklift and a bulldozer.

           •   Division’s inventory system did not identify the source of funding (Program
               funds, license revenues, State funds, etc.) used to purchase equipment. For
               example, a tractor and an excavator were purchased for $232,750 (federal share
               $183,938) under Grant W-65-M-56, but the inventory did not identify them as
               Program-funded.

       The Code of Federal Regulations (50 C.F.R. 80.18(c)) and the FWS Manual (522 FW
       1.16) require that the State account for and control all assets acquired with Program
       funds. Furthermore, the State of Utah Financial Accounting Policies and Procedures
       Manual (FAPPM) requires assets purchased with federal funds to be identified and
       safeguarded as federal property.

                                                4
     The issues arose because (1) the Division’s headquarters office depends on the field
     locations to keep the equipment records current and complete, and (2) the Division did
     not follow the FAPPM’s requirement to record the funding source of all equipment. As a
     result, the Division risks losing or misplacing its equipment and is unable to ensure that
     its property is used only for authorized purposes.

     Recommendations

     We recommend that FWS require the Division to:

     1. update its policies and procedures to require the field offices to reconcile their
        equipment records with headquarters, and

     2. identify the funding source of equipment purchased with Program funds and license
        revenue in the inventory system.

     Division Response

     The Division concurred with the finding and recommendations and stated that it is
     revising the Inventory Policy and Procedures for the Accounting of Fixed and Assigned
     Assets to ensure that fixed assets are properly accounted for, safeguarded, physically
     inventoried, and reconciled annually with headquarters. The Division also stated that it
     will identify and record the funding source of (1) inventoried accountable capitol
     equipment for which adequate records are available and (2) all new equipment.

     FWS Response

     FWS did not have any comments on the finding or recommendations and will consider
     the Division’s comments in preparing the corrective action plan.

     OIG Comments

     Based on the Division and FWS responses, additional information is needed in the
     corrective action plan, indicating verification that FWS headquarters officials reviewed
     and approved of actions taken or planned by the Division.

B.   Inadequate Land Management Records

     The Division is required to maintain sufficiently detailed land records to ensure that lands
     purchased with Program funds and license revenues are used for fish and wildlife
     purposes. However, the Division could not provide supporting documentation for
     $302,431 from the sale of land and water rights. As a result, we could not determine
     whether the lands sold had been originally acquired with Program funds, license revenue,
     or funds from another source. Furthermore, the Division did not reconcile its land
     records with FWS land database.


                                               5
The Code of Federal Regulations (50 C.F.R. § 80.18(c)) requires that States exercise
accountability and control of all assets to assure that they serve the purpose for which
acquired throughout their useful life. Furthermore, the FWS Director issued a letter in
March 2007, requesting each State to maintain a real property management system that
includes a comprehensive inventory of lands and to ensure that the inventory is accurate
and complete.

Because the Division did not maintain adequate land records and lacked procedures to
reconcile real property inventory data with FWS, it could not ensure the accountability
and control of lands purchased with Program funds and license revenue.

Recommendations

We recommend that FWS require the Division to:

1. provide detailed support for $302,431 from the sale of land which identifies the
   purchase funding sources,

2. establish policies and procedures to document the funding source of all lands acquired
   with Program funds or license revenue and maintain adequate support for all land and
   water rights sold, and

3. reconcile its records of lands acquired with Program funds with FWS’ records.

Division Response

The Division concurred with the finding and recommendations and stated that it will
provide sufficient information regarding the funding source of land and water rights that
were sold for $302,431 and develop and implement policies and procedures to document
the funding source for all lands and water rights, which they have acquired. The Division
also stated that it will work with FWS to ensure that a reconciliation of land records is
completed.

FWS Response

FWS did not have any comments on the finding or recommendations and will consider
the Division’s comments in preparing the corrective action plan.

OIG Comments

Based on the Division and FWS responses, additional information is needed in the
corrective action plan, indicating verification that FWS headquarters officials reviewed
and approved of actions taken or planned by the Division.




                                         6
C.   Improper Access to the State’s Accounting System

     The Division restricts access to the State’s accounting system, known as the Financial
     Information Network (FINET), by providing user identifications (IDs) and passwords to
     employees who need to access the system. Industry standards and Division policy dictate
     that employees’ access privileges be removed in a timely manner when access is no
     longer required to perform day-to-day job functions. When employees change job
     responsibilities, resign, or retire, the Division should terminate their access privileges to
     maintain the security of information in FINET. We identified 13 former employees who
     still had active IDs for FINET as of July 2009, and 2 seasonal employees who should not
     have had access during nonemployment periods.

     The Division’s Finance Manager informed us that this issue occurred because the
     Division’s exit procedures do not require the removal of terminated employees’ access to
     FINET. Such unauthorized access increases the risk of modification, loss, damage, or
     theft of valuable information and may ultimately affect data reliability.

     Recommendation

     We recommend that FWS ensure the Division implements routine procedures to remove
     inactive employee’s access to FINET.

     Division Response

     The Division concurred with the finding and recommendation and stated that it will
     develop and implement policy that will address the issue of inactive employees still
     having access to FINET.

     FWS Response

     FWS did not have any comments on the finding or recommendation and will consider the
     Division’s comments in preparing the corrective action plan.

     OIG Comments

     Based on the Division and FWS responses, additional information is needed in the
     corrective action plan, indicating verification that FWS headquarters officials reviewed
     and approved of actions taken or planned by the Division.




                                               7
                                               Appendix 1
                                                 Page 1 of 2


  UTAH DEPARTMENT OF NATURAL RESOURCES
      DIVISION OF WILDLIFE RESOURCES
  FINANCIAL SUMMARY OF REVIEW COVERAGE
     JULY 1, 2006, THROUGH JUNE 30, 2008

Grant Number   Grant Amount    Claimed Costs
F-44-R-27         $2,832,464     $3,829,556
F-44-R-28          2,811,376      3,668,438
F-47-R-20            213,359        213,215
F-63-B-23             93,084         73,312
F-63-B-24            112,123         68,470
F-74-R-17            808,968        873,573
F-74-R-18            999,808        898,568
F-79-D-2             252,560        181,583
F-84-M-16          2,682,744      2,867,954
F-84-M-17          3,185,219      3,253,577
F-98-B-43             75,000         75,000
F-98-B-51             83,811         83,810
F-98-B-56            193,680        179,612
F-98-B-57            128,200         57,601
F-98-B-58             39,260         32,579
F-98-B-59            210,700        211,795
F-98-B-60            150,000        150,000
F-98-B-61            365,760        340,067
F-98-B-62             31,371         31,371
F-98-B-63            119,700         98,920
F-98-B-64            269,796        265,973
F-98-B-65            250,963        247,995
F-98-B-66            192,000        192,000
F-98-B-67            387,187              0
F-98-B-68             35,000         35,000
F-98-B-69            232,000         50,701
F-98-B-71            370,000              0
F-98-B-72             16,064         17,111
F-98-B-76             16,068              0
F-101-M-3             22,641         16,850
F-101-M-4             79,494         46,451
F-101-M-5             20,852         20,660

                      8
                                              Appendix 1
                                                Page 2 of 2



   UTAH DEPARTMENT OF NATURAL RESOURCES
       DIVISION OF WILDLIFE RESOURCES
   FINANCIAL SUMMARY OF REVIEW COVERAGE
      JULY 1, 2006, THROUGH JUNE 30, 2008

Grant Number   Grant Amount   Claimed Costs
F-102-M-1          $135,280        $117,546
F-102-M-7            30,000               0
F-102-M-8            31,500               0
F-104-M-1           100,000          29,506
FW-16-C-66          275,000         198,983
FW-16-C-67          275,000         294,664
FW-16-C-68          275,000         292,849
W-65-M-54         4,673,887       4,671,853
W-65-M-55         4,711,887       5,823,704
W-65-M-56         5,657,363       6,347,913
W-82-R-51           564,112         360,691
W-82-R-52           540,511         421,672
W-82-R-53           539,631         501,786
W-159-E-5           106,667         148,247
W-159-E-6           106,667         135,814
W-161-E-4           764,371       1,260,099
W-162-R-3            83,827          29,596
W-162-R-4            83,827          82,068
W-163-R-1            72,474          83,025
Totals          $36,308,256     $38,881,758




                       9
                                                               Appendix 2


      UTAH DEPARTMENT OF NATURAL RESOURCES
          DIVISION OF WILDLIFE RESOURCES
                    SITES VISITED

                         Headquarters

                      Salt Lake City, Utah

                        Regional Office

                      Southeastern Region

                        Fish Hatchery

                          Whiterocks

                  Wildlife Management Areas

                         Currant Creek
                        Tabby Mountain

                          State Parks

                          Deer Creek
                          Jordanelle
                           Rockport
                          Utah Lake

                         Other Areas

Antelope Flats Boat Ramp, Flaming Gorge National Recreation Area
             Desert Lake Waterfowl Management Area
            East Park Reservoir, Ashley National Forest
                    Great Basin Research Center
   Mill Hollow Reservoir, Uinta-Wasatch-Cache National Forest




                              10
                                                                              Appendix 3


                UTAH DEPARTMENT OF NATURAL RESOURCES
                     DIVISION OF WILDLIFE RESOURCES
             STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS

Recommendations                   Status                      Action Required
A.1, A.2, B.1, B.2, B.3, FWS did not have any          The corrective action plan should
and C                    comments on the findings or   include the actions taken or
                         recommendations and will      planned to implement the
                         consider the Division’s       recommendations, titles of
                         comments in preparing the     officials responsible for
                         corrective action plan.       implementing the actions taken or
                                                       planned, targeted completion
                                                       date(s), and verification that FWS
                                                       officials reviewed and approved of
                                                       actions taken or planned by the
                                                       State. We will refer
                                                       recommendations not resolved
                                                       and/or implemented at the end of
                                                       90 days (after April 29, 2010) to
                                                       the Assistant Secretary for Policy,
                                                       Management and Budget for
                                                       resolution and/or tracking of
                                                       implementation.




                                       11
                                                 


                      Report Fraud, Waste, Abuse,  
                         and Mismanagement
                                                   
                            Fraud,
                                    waste and abuse in government
                            concern everyone: Office
                                                         of Inspector
                            General staff, Departmental employees,
                            and the general public. We actively
                            solicit allegations of any inefficient and
                            wasteful  practices, fraud, and abuse
                            related to Departmental or Insular Area
                           
                            programs and operations. You can
                                                                     
                            report allegations to  us in several ways.
                                                 
                                                     
                                                 
                                                 
                 By Mail:           U.S. Department of the Interior  
                                    Office of Inspector General  
                                    Mail Stop 4428 MIB  
                                    1849 C  Street, NW  
                                    Washington, D.C. 20240  
                   
                 By Phone :         24‐Hour Toll Free                    800‐ 424‐5081 
                                    Washington Metro Area                703‐ 487‐5435 
                   
                 By Fax:            703‐487‐5402
                   
                 By Internet:       www. doioig.gov/hotline
              
                                                                                           
